No. ______
In the Supreme Court of the United
__________________
KIMBERLEY THAMES,
v.

States

Petitioner,

CITY OF WESTLAND, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500

ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org

PATRICK T. GILLEN
Special Counsel
Thomas More Society
1581 Oakes Boulevard
Naples, FL 34119
(734) 355-3478
Counsel for Petitioner
June 8, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Petitioner Kimberly Thames was praying on the
public sidewalk outside of an abortion clinic when a
clinic guard accused her of saying: “I prophesy bombs
are going to fall and they’re going to fall in the near
future” and later claimed she said, “bombs, bombs on
America, and bombs will blow up this building.”
Thames was arrested and jailed for over 49 hours
because, according to the senior officer at the scene,
“you can’t say anything about bombs near a facility that
performs abortions.” Thames was arrested and jailed
for pure speech.
The Sixth Circuit held that Respondent police
officers were entitled to qualified immunity because
they reasonably believed that Thames’s speech was a
criminal threat. It also held that Respondent City of
Westland was not liable for Thames’s arrest, even
though the arrest was authorized by City policy
according to its Rule 30(b)(6) witness and ratified by its
Chief of Police.
1. Did Petitioner’s arrest and subsequent detention
based on her speech violate her clearly established
rights as set forth in Watts v. United States, 394 U.S.
705 (1969), Virginia v. Black, 538 U.S. 343 (2003),
NAACP v. Claiborne Hardware Co., 458 U.S. 886
(1982), and Brandenburg v. Ohio, 395 U.S. 444 (1969),
such that the arresting officers do not enjoy qualified
immunity?
2. Is the City liable under Monell v. New York City
Department of Social Services, 436 U.S. 658 (1978), for
Thames’s arrest and subsequent detention for allegedly

ii
mentioning bombs outside a facility that performs
abortions—a decision which was authorized by City
policy and ratified by its Chief of Police and the City’s
designated Rule 30(b)(6) witness?

iii
PARTIES TO THE PROCEEDING
Petitioner is Kimberley Thames (“Petitioner” or
“Thames”).
Respondents are the City of Westland, Michigan
(“City”); Jeff Jedrusik, individually and in his official
capacity as Chief of Police, City of Westland Police
Department; Norman Brooks; John Gatti; Jason
Soulliere; and Adam Tardiff (collectively referred to as
“Respondents”).
STATEMENT OF RELATED PROCEEDINGS
There are no related proceedings.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE PETITION . . . . 6
I.

Lower Courts Are Uncertain about the
Standards Governing the Mens Rea and
Actus Reus of True Threats. . . . . . . . . . . . . . . 7

II.

This Case Shows that Lower Courts Remain
Uncertain about When Inflammatory Speech
Is Protected as a Matter of Law under Watts,
Claiborne Hardware, or Brandenburg . . . . . 17

III.

This Case Shows that Courts Are Confused
Over What Speech Is Protected under the
Clearly Established Law Laid Down in
Watts, Brandenburg, and Claiborne
Hardware . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

v
IV.

This Case Shows that Courts Are Confused
about the Application of Black to Municipal
Policies that Authorize Arrests Based on
Pure Speech . . . . . . . . . . . . . . . . . . . . . . . . . . 26

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(December 6, 2019) . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Eastern District
of Michigan, Southern Division
(June 18, 2018) . . . . . . . . . . . . . . App. 34
Appendix C Opinion and Order Granting in Part
and Denying in Part Defendants’
Motion for Summary Judgment (Doc.
35) and Denying Plaintiff’s Motion for
Partial Summary Judgment (Doc. 36)
in the United States District Court for
the Eastern District of Michigan,
Southern Division
(April 20, 2018) . . . . . . . . . . . . . . App. 36
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(January 10, 2020) . . . . . . . . . . . App. 73

vi
TABLE OF AUTHORITIES
CASES
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . . . . . . 24
Boos v. Barry,
485 U.S. 312 (1988). . . . . . . . . . . . . . . . . . . . . . . 16
Bose Corp. v. Consumers Union of U.S., Inc.,
466 U.S. 485 (1984). . . . . . . . . . . . . . . . . . . . . . . 18
Brandenburg v. Ohio,
395 U.S. 444 (1969). . . . . . . . . . . . . . . . . . . passim
Dugan v. Brooks,
818 F.2d 513 (6th Cir. 1987). . . . . . . . . . . . . . . . 24
Elonis v. United States,
135 S. Ct. 2001 (2015). . . . . . . . . . . . . . . . . . . . . 13
Grayned v. City of Rockford,
408 U.S. 104 (1972). . . . . . . . . . . . . . . . . . . . . . . 16
Hale v. Kart,
396 F.3d 721 (6th Cir. 2005). . . . . . . . . . . . . . . . 22
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . . . . . . . . 23, 24
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . . . . . . 24
Hurley v. Irish-Am. Gay, Lesbian & Bisexual
Group of Bos., 515 U.S. 557 (1995) . . . . . . . . . . 18
Kansas v. Boettger, 450 P.3d 805 (2019), petition
for cert. filed (U.S. Feb. 20, 2020). . . . . . . . . 13, 14

vii
Meyers v. City of Cincinnati,
14 F.3d 1115 (6th Cir. 1994). . . . . . . . . . . . . . . . 27
Monell v. N.Y. City Dep’t of Soc.
Servs., 436 U.S. 658 (1978). . . . . . . . . . . . . . . i, 26
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982). . . . . . . . . . . . . . . . . . . passim
New York v. Operation Rescue Nat’l,
273 F.3d 184 (2d Cir. 2001) . . . . . . . . . . . . . . . 7, 8
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . . . 23
Pembaur v. City of Cincinnati,
475 U.S. 469 (1986). . . . . . . . . . . . . . . . . . . . . . . 26
People v. Osantowski,
736 N.W.2d 289 (Mich. App. 2007). . . . . . . . 14, 17
Perez v. Fla.,
137 S. Ct. 853 (2017). . . . . . . . . . . . . . . . . . . . . . 12
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . 23
St. Louis v. Praprotnik,
485 U.S. 112 (1988). . . . . . . . . . . . . . . . . . . . . . . 28
United States v. Ackell,
907 F.3d 67 (1st Cir. 2018) . . . . . . . . . . . . . . . . . 11
United States v. Alkhabaz,
104 F.3d 1492 (6th Cir. 1997). . . . . . . . . . . . . . . 19
United States v. Bagdasarian,
652 F.3d 1113 (9th Cir. 2011). . . . . . . . . . . . . . . 12

viii
United States v. Dillard,
795 F.3d 1191 (10th Cir. 2015). . . . . . . . . . 8, 9, 11
United States v. Hankins,
195 F. App’x 295 (6th Cir. 2006) . . . . . . . . . . . . 19
United States v. Heineman,
767 F.3d 970 (10th Cir. 2014). . . . . . . . . . . . . . . 12
United States v. Jeffries,
692 F.3d 473 (6th Cir. 2012). . . . . . . . . . . . . . . . 11
United States v. Mabie,
663 F.3d 322 (8th Cir. 2011). . . . . . . . . . . . . . . . 12
United States v. Parr,
545 F.3d 491 (7th Cir. 2008). . . . . . . . . . . . . . . . 12
United States v. Turner,
720 F.3d 411 (2d Cir. 2013) . . . . . . . . . . . . . . 8, 15
United States v. White,
670 F.3d 498 (4th Cir. 2012). . . . . . . . . . . . . . . . 11
Va. v. Black,
538 U.S. 343 (2003). . . . . . . . . . . . . . . . . . . passim
Watts v. United States,
394 U.S. 705 (1969). . . . . . . . . . . . . . . . . . . passim
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . 24, 26
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ix
Mich. Comp. Laws § 750.543m . . . . . . . . . . . . . 13, 17
Mich. Comp. Laws § 750.543z . . . . . . . . . . . . . . 14, 18
RULE
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
The opinion of the court of appeals appears at App.
1 and is unpublished but reported at Nos. 18-1576, 181608, 18-1695, 2019 U.S. App. LEXIS 36225. The
opinion of the district court appears at App. 36 and is
reported at 310 F. Supp. 3d 783.
JURISDICTION
The opinion of the court of appeals was entered on
December 6, 2019. App. 1. A petition for rehearing en
banc was denied on January 10, 2020. App. 73. The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Free Speech Clause of the First Amendment
provides, “Congress shall make no law . . . abridging
the freedom of speech.” U.S. Const. amend. I.
STATEMENT OF THE CASE
Per the panel’s opinion (verbatim): “On Saturday
morning, August 27, 2016, Kimberley Thames, a 57year old, Roman Catholic, pro-life activist, stood with
three other people—an elderly woman who appeared to
be a Catholic nun, and a wheelchair-bound man with
his wife—on the public sidewalk outside Northland
Family Planning, an abortion clinic. Thames was
holding a two-foot-by-two-foot sign with a photo and
handwritten words, advocating pro-life beliefs and
protesting abortion.”

2

Photo of Thames (left) taken from police dash camera
upon arrival at the scene.
The panel opinion continues: “[w]hile many
Northland Clinic employees knew Thames as an
occasional protestor, the Clinic’s security guard, Robert
Parsley, apparently did not.
He was standing
somewhere near her when she engaged him in
conversation, beginning with her offer that she was
praying for him and praying that he would find a
different job. But, at some point, there was discussion
of bombs. Thames said that Parsley raised the topic of
bombs, telling her that there had been bombings and
threats at abortion clinics, but Parsley says that
Thames initiated it and said something like: ‘I
prophesy bombs are going to fall and they’re going to
fall in the near future’; ‘I prophesy bombs are going to
fall and they’re going to fall on you people’; and ‘bombs,

3
bombs on America, and bombs will blow up this
building.’” App. 2-3.
As the record demonstrates, Parsley, the clinic
security guard, accused Thames of making a bomb
threat, telling the officers prior to Thames’s arrest that
she stated the following: “I prophesy bombs are going
to fall and they’re going to fall in the near future.”1
Prior to the police leaving the scene of the arrest,
Parsley was instructed to make a written statement, in
which he contradicted his prior statement and told the
officers that the alleged “threat” was as follows: “She
said, bombs, bombs on America, and bombs will blow
up this building.”2
Thames vehemently denied making any bomb
threat, telling the police at the scene and prior to her
arrest that Parsley brought up the issue of clinic
bombings, claiming that abortion clinics in Michigan
have been bombed, to which Thames responded that
she was not aware of any such bombings and that she
is not the type of person who would do such a thing.3
See App. 4-6.

1

(R-35-7:Def. Ex. F Gatti Dep. at 52:12, 23-25 to 53:5-23, Pg.ID
490-91; R-36-3:Ex. B [Police Video: JGatti at 8:51:31 to 8:52:53],
Pg.ID 586).

2

3

(R-36-3:Ex. E [Parsley Statement], Pg.ID 614).

(R-36-3:Ex. J Soulliere Dep. at 57:24-25 to 58:1-17, Pg.ID 655; R36-3:Ex. C [Investigation] at 6, Pg.ID 593; R-36-2:Ex. 1 Thames
Decl. ¶¶ 9-12, Pg.ID 565-66).

4
At the scene of the arrest, two officers searched
Thames’s vehicle. They did not find any explosives or
any other contraband. App. 11.
Despite the alleged concern about a bomb, the
officers did not request the assistance of a bomb squad
or bomb sniffing dog, they did not direct the evacuation
of the clinic, they did not search the clinic for a bomb,
they did not search the surrounding area for a bomb,
they did not search the adjacent parking lot for a bomb,
they did not search the dumpster for a bomb, and they
did not impound Thames’s vehicle.4 See App. 11-12, 41.
The evidence also shows that there was no “alarm”
on the part of the security guard or the clinic staff. As
the recording of the 9-1-1 call demonstrates, Mary
Guilbernat, the abortion clinic employee who made the
call, was calmly speaking with the 9-1-1 dispatcher,
and she told the dispatcher, inter alia, that Thames
was simply holding a sign and that she (Mary) saw
nothing to indicate that Thames had anything like a
bomb.5
Based on the security guard’s false accusation,
Thames was handcuffed, brought to the police station,
and jailed for over 49 hours under exceedingly difficult
conditions. See App. 12-13.

4

(R-36-3:Ex. J Soulliere Dep. at 34:14-25 to 35:1-12, Pg.ID 649; R36-3:Ex. L Brooks Dep. at 26:15-25, 27:18-19, 28:1-17, Pg.ID 676).

5

(R-36-3:Ex. J Soulliere Dep. at 46:5-25 to 48:1; R:36-3:Ex. A [9-1-1
Recording]).

5
Thames was finally released from jail when a
detective reviewed the police report and properly
concluded: “I do not see a direct threat where
Kimberley threatened to bomb the clinic.”6
Respondent Brooks, the senior officer directing
Thames’s arrest, explained his rationale for doing so as
follows:
I don’t know the exact verbiage that—that he
[Parsley] said to Officer Gatti. My—there’s only
one word that concerns me in this whole thing
and that’s bombs. Just like you can’t yell fire in
a crowded theater, you can’t say anything about
bombs near a facility that performs abortions.
App. 8. Brooks also testified that the “[t]hreat doesn’t
have to be credible according to the law.”7 App. 12.
The district court properly held that the officers did
not enjoy qualified immunity. App. 58, 60, 63.
However, the court erred by failing to find that the
alleged “threats” do not constitute “true threats” as a
matter of clearly established law under the First

6

(R-36-3:Ex. N Farrar Dep. at 24:19-24, Pg.ID 686; R-36-3:Ex. D
[Report] at 5, Pg.ID 611).

7

Contrary to the Sixth Circuit’s claim, see App. 21, credibility and
capability are two distinct concepts. While the person making the
threat need not have the capability to carry it out, the threat itself
must still be credible—even more, it must be a “serious expression
of an intent to commit an act of unlawful violence.” Va. v. Black,
538 U.S. 343, 359 (2003). The officers’ actions at the time of the
arrest, as noted above, demonstrate without contradiction that
they did not consider this a “true threat.”

6
Amendment and thus erred by failing to enter
judgment in Thames’s favor. See App. 48-53. The
district court also erred by finding no municipal or
supervisory liability. See App. 63-69. The Sixth
Circuit compounded the district court’s errors by
reversing the court’s decision on the qualified
immunity issue. App. 19-25. The court also affirmed
the district court’s municipal liability ruling.
Accordingly, the panel dismissed the case.
REASONS FOR GRANTING THE PETITION
This case arises from an allegation that Petitioner
Kimberly Thames said “something like ‘I prophesy that
bombs are going to fall, they’re going to fall in the near
future, and they’re going to fall on you people, and on
America, and bombs will blow up this building,’” while
protesting outside of an abortion clinic. App. 21.
In defiance of this Court’s controlling precedent, the
Sixth Circuit erroneously concluded that Thames’s
alleged statement(s) provided sufficient justification for
the officers to arrest and detain her for over 49 hours
for making a “threat.” Consequently, the Sixth Circuit
erroneously concluded that the officers who arrested
Thames based on the alleged statement(s) were
entitled to qualified immunity because they could
reasonably believe that the statement(s) constituted a
“true threat” under clearly established law. Finally,
the Sixth Circuit erroneously concluded that the City
is not liable for Thames’s unlawful arrest, which was
executed by nearly the entire day shift and its
supervisor, or her unlawful 49-hour detention—both of
which were authorized by City policy per the City’s

7
Rule 30(b)(6) witness and ratified through the City’s
Chief of Police.
Review by this Court is necessary because the Sixth
Circuit committed precedent-setting errors of
exceptional public importance and issued an opinion
that directly conflicts with this Court’s precedent. Sup.
Ct. R. 10(c). Moreover, the problem is not limited to
the Sixth Circuit. Lower courts, both state and federal,
are unable to draw the line between words that,
considered in context, are “true threats” and words that
are protected speech.
The important First Amendment issues at stake in
this case warrant this Court’s attention and review,
and this case provides a proper vehicle for resolving
these issues because there is no dispute of any material
fact.
I.

Lower Courts Are Uncertain about the
Standards Governing the Mens Rea and
Actus Reus of True Threats.

Petitioner contends that the Second Circuit’s
decision in New York v. Operation Rescue National, 273
F.3d 184 (2d Cir. 2001), is illustrative of the confusion
in lower courts on how to distinguish true threats from
protected speech. In Operation Rescue National, the
court stated, in relevant part, as follows:
When determining whether a statement
qualifies as a threat for First Amendment
purposes, a district court must ask whether “the
threat on its face and in the circumstances in
which it is made is so unequivocal,
unconditional, immediate and specific as to the

8
person threatened, as to convey a gravity of
purpose and imminent prospect of execution
. . . .” United States v. Kelner, 534 F.2d 1020,
1027 (2d Cir.), cert. denied, 429 U.S. 1022.
Operation Rescue Nat’l, 273 F.3d at 196-97.
Significantly, this legal standard has been criticized by
other circuits and dismissed as dicta by other Second
Circuit panels. See, e.g., United States v. Dillard, 795
F.3d 1191, 1200 (10th Cir. 2015) (rejecting the district
court’s conclusion that the defendant’s letter did not
contain a true threat and criticizing the district court’s
reliance on Operation Rescue National, stating, “In
recent cases, however, the Second Circuit has described
this language as ‘dicta’ and has rejected the argument
that all threats must satisfy all of these conditions in
order to fall outside of the First Amendment
protections.”) (citing United States v. Turner, 720 F.3d
411, 424 (2d Cir. 2013)).
As the Second Circuit stated further in Operation
Rescue National:
Thus, generally, a person who informs someone
that he or she is in danger from a third party
has not made a threat, even if the statement
produces fear. This may be true even where a
protestor tells the objects of protest that they are
in danger and further indicates recent political
support for the violent third parties.
Operation Rescue Nat’l, 273 F.3d at 196-97. Applying
the law to the facts, the Second Circuit concluded as
follows:

9
Although we are skeptical as to whether any of
[the defendant’s] statements constitute true
threats, there is one in particular that
illustrates our concern. The District Court
found that [the defendant] threatened a clinic
doctor when, soon after the murder of Dr.
Bernard Slepian, she told the doctor that killing
babies is no different than killing doctors. Given
the context, it is understandable that the clinic
doctor feared for her safety, and that [the
defendant’s] protest and strong rhetoric
reinforced that fear. But excessive reliance on
the reaction of recipients would endanger First
Amendment values, in large part by potentially
misconstruing the ultimate source of the fear.
[The defendant’s] expression went to the core of
her protest message, and the statement (even in
context) did not suggest that [the defendant]
was engaged in a plan to harm the clinic doctor.
This statement did not indicate the “unequivocal
immediacy and express intention,” Kelner, 534
F.2d at 1027, of a true threat. It was not a
direct or even veiled threat, but expression of a
political opinion. As such, it is entitled to First
Amendment protection.
Id. (emphasis added).
The dissent in United States v. Dillard, 795 F.3d
1191 (10th Cir. 2015) (Baldock, J., dissenting), further
illustrates the problem the lower courts have with
analyzing threats in the context of the First
Amendment:

10
This is the third “true threat” case I have sat on
during the past year. See also United States v.
Wheeler, 776 F.3d 736 (10th Cir. 2015); United
States v. Heineman, 767 F.3d 970, 982-87 (10th
Cir. 2014) (Baldock, J., concurring in the
judgment). And the decisions are not getting
any easier—this thorny case being a perfect
example. Here, in contrast to my colleagues, I
would affirm the district court because: (1) our
case law, to my knowledge, has never been
extended this far; and (2) the facts of this case do
not merit such an extension.
The primary issue here is simple: Could a
reasonable jury find that, objectively speaking,
Angel Dillard threatened Dr. Mila Means? The
Court says yes. The district court saw it
differently, and so do I. The key “threat” in
Dillard’s letter is her statement that, should Dr.
Means ever follow through on her plan to
provide abortions, Dr. Means “will be checking
under your car everyday-because maybe today is
the day someone places an explosive under it.”
This statement was undeniably ill-advised. But
was it a true threat, rather than just an ugly
prediction Dillard foolishly chose to voice? See
United States v. Cassel, 408 F.3d 622, 636-37
(9th Cir. 2005) (“Whether the threat is of injury
to person or property, there is no doubt that it
must be a threat of injury brought about—rather
than merely predicted—by the defendant.”). The
district court classified it as a prediction, in part
because the statement was: (1) conditional,
hinging on actions Dr. Means may or may not

11
take in the future; (2) not imminent, as Dr.
Means was years away from acting; and
(3) impersonal, as Dillard never took ownership
of the actions in this sentence (nor indeed, of the
entire surrounding paragraph). In response, the
Court devotes a good portion of its analysis to
showing that a true threat can indeed be
conditional, non-imminent, or impersonal. And
I would agree. But here we are dealing with a
letter that is all of the above: conditional, nonimminent, and impersonal. The Court does not
acknowledge this complication, much less
wrestle with it. Any such wrestling should lead
to this realization: Case law does not strongly
support true threat exposure in a situation this
attenuated.
Dillard, 795 F.3d at 1207 (Baldock, J., dissenting).
In short, there is disparity and conflict among the
circuits as to how a “threat” should be analyzed under
the First Amendment, including whether the courts
should employ an objective or a subjective test in the
first instance. See, e.g., United States v. Ackell, 907
F.3d 67, 77 n.4 (1st Cir. 2018) (“[T]he necessary
subjective intent one needs to make a true threat is
rather hazy.”); United States v. White, 670 F.3d 498,
507 (4th Cir. 2012) (“In determining whether a
statement is a ‘true threat,’ we have employed an
objective test so that we will find a statement to
constitute a ‘true threat’ if an ordinary reasonable
recipient who is familiar with the context would
interpret the statement as a threat of injury”) (internal
quotation marks and alterations omitted); United

12
States v. Jeffries, 692 F.3d 473, 478 (6th Cir. 2012)
(finding a true threat if “a reasonable person would
perceive the threat as real”); United States v. Parr, 545
F.3d 491, 500 (7th Cir. 2008) (“It is possible that the
Court was not attempting a comprehensive redefinition
of true threats in Black; the plurality’s discussion of
threat doctrine was very brief. It is more likely,
however, that an entirely objective definition is no
longer tenable.”); United States v. Mabie, 663 F.3d 322,
333 (8th Cir. 2011) (“The government need not prove
that [the defendant] had a subjective intent to
intimidate or threaten in order to establish that his
communications constituted true threats. Rather, the
government need only prove that a reasonable person
would have found that [the defendant’s]
communications conveyed an intent to cause harm or
injury.”); United States v. Bagdasarian, 652 F.3d 1113,
1117 n.14 (9th Cir. 2011) (“Black requires that the
subjective test must be met under the First
Amendment whether or not the statute requires it, an
objective test is not an alternative but an additional
requirement over-and-above the subjective standard.”);
United States v. Heineman, 767 F.3d 970, 979 (10th
Cir. 2014) (“[A] natural reading of Black’s definition of
true threats embraces not only the requirement that
the communication itself be intentional, but also the
requirement that the speaker intend for his language
to threaten the victim . . . . Other circuits have
declined to read Black as imposing a subjective-intent
requirement. . . . . But the reasons for their
conclusions do not persuade us.”); see also Perez v. Fla.,
137 S. Ct. 853, 855 (2017) (Sotomayor, J., concurring in
denial of certiorari) (“Together, Watts and Black make
clear that to sustain a threat conviction without

13
encroaching upon the First Amendment, States must
prove more than the mere utterance of threatening
words—some level of intent is required. And these two
cases strongly suggest that it is not enough that a
reasonable person might have understood the words as
a threat—a jury must find that the speaker actually
intended to convey a threat.”).
Part of the confusion relates to the mens rea
required under this Court’s decision in Black. The
petition now pending in Kansas v. Boettger, 450 P.3d
805 (2019), petition for cert. filed (U.S. Feb. 20, 2020)
(No. 19-1051), illustrates that lower courts, both
federal and state, also remain uncertain as to the mens
rea required for a statement to constitute a “true
threat.” Members of this Court have expressed
persistent concern that uncertainty on this issue is
producing injustice, while differing over the mens rea
requirement that is consistent with the First
Amendment. See, e.g., Elonis v. United States, 135 S.
Ct. 2001 (2015) (holding that negligence was
insufficient to support a conviction but leaving open the
ultimate question of the appropriate mental state for
threat prosecutions); id. at 2013-18 (Alito, J.,
dissenting) (arguing that recklessness is consistent
with the First Amendment); id. at 2018-24 (Thomas, J.,
dissenting) (“This failure to decide [the appropriate
mental state for threat prosecutions] throws everyone
from appellate judges to everyday Facebook users into
a state of uncertainty.”).
This case implicates the confusion over mens rea
because here Thames was arrested under Mich. Comp.
Laws § 750.543m, which has been interpreted to

14
require only general intent. See People v. Osantowski,
736 N.W.2d 289, 297 (Mich. App. 2007) (construing the
statute as limited to “true threats” so as not to infringe
on First Amendment protections and confirming that
“[s]tatutes that criminalize pure speech ‘must be
interpreted with the commands of the First
Amendment clearly in mind’”) (quoting Watts, 394 U.S.
at 707); Mich. Comp. Laws § 750.543z (“[A] prosecuting
agency shall not prosecute any person or seize any
property for conduct presumptively protected by the
first amendment . . . .”); Osantowski, 736 N.W.2d at 299
(relying on Black to hold that the only intent that the
prosecution had the burden to prove was defendant’s
general intent to communicate a “true threat”).
This case presents two additional and critical issues
arising under this Court’s “true threats” jurisprudence
that are related to, but distinct from, the questions
presented in Kansas v. Boettger. The first issue turns
on the words that constitute the actus reus of a “true
threat” under this Court’s First Amendment
jurisprudence. If States can impose criminal sanctions
for speech based on mere recklessness or a general
intent, as some justices have suggested and as many
courts have held, then preserving the distinction
between statements that count as “true threats” under
Black, and those statements which are protected speech
under this Court’s decisions in Watts, Brandenburg,
and Claiborne Hardware, becomes vitally important.
The reason is simple. If the mens rea requirement
can be easily proven based on uttering the words that
are the actus reus of a true threat, then First
Amendment protection effectively turns on whether

15
those words, considered in context, fall under Black
(and can be punished), or under Watts, Brandenburg,
and Claiborne Hardware (and must be protected). As
demonstrated herein, lower courts have proven unable
to preserve that distinction on a principled basis.
Sadly, in the current climate, speakers like Thames
who seek to voice a pro-life message are often the
victims of this vagary in the decisional process.
The second and related issue arising under the “true
threats” doctrine turns on the proper application of this
Court’s decision in Black, which emphasizes the need
for a careful and contextualized analysis of speech.
Here, Thames was arrested and detained for over 49
hours because “you can’t say anything about bombs
near a facility that performs abortions,” a decision
which reflects a municipal policy that authorizes an
arrest of an individual for using certain words. Such a
policy flies in the face of this Court’s decision in Black,
which rejected the notion that the use of certain
symbols, and by necessary implication the use of
certain words, can be a surrogate for a case-specific
inquiry about whether a given statement constitutes a
“true threat.” “The First Amendment does not permit
such a shortcut.” Black, 538 U.S. at 367.
Finally, there is confusion regarding the interplay
between “true threats” under Watts and Black and
“incitement” under Brandenburg. See, e.g., United
States v. Turner, 720 F.3d 411, 429-36 (2d Cir. 2013)
(Pooler, J., dissenting). The case at bar illustrates the
confusion as the Sixth Circuit never addressed nor
even considered the impact of Brandenburg in its
decision.

16
Consider, for example, NAACP v. Claiborne
Hardware Company, 458 U.S. 886 (1982). In Claiborne
Hardware, the Court held that the “mere advocacy of
the use of force or violence does not remove speech from
the protection of the First Amendment.” Id. at 927. In
this case, Charles Evers, a civil-rights boycott
organizer, spoke out against boycott breakers during
several public rallies. Id. at 902. At one rally, he
stated that boycott breakers would be “disciplined.” At
another rally he stated, “If we catch any of you going in
any of them racist stores, we’re gonna break your damn
neck.” Id. The Court acknowledged that Evers’s
speech “might have been understood as inviting an
unlawful form of discipline or, at least, as intending to
create a fear of violence.” Id. at 927. Nonetheless, the
Court analyzed the threatening speech under
Brandenburg and held that it was protected by the
First Amendment. Id. at 927-29.
In the final analysis, this disparity and concomitant
uncertainty as to how the lower courts should evaluate
“threats” in the context of the First Amendment have
a chilling effect on the freedom of speech as it forces
those who seek to adhere to the law to steer far and
wide of the perceived unlawful zone. Grayned v. City
of Rockford, 408 U.S. 104, 109 (1972) (“Uncertain
meanings inevitably lead citizens to steer far wider of
the unlawful zone than if the boundaries of the
forbidden areas were clearly marked.”) (internal
quotations omitted). The First Amendment needs
breathing space. Boos v. Barry, 485 U.S. 312, 322
(1988) (“As a general matter, we have indicated that in
public debate our own citizens must tolerate insulting,
and even outrageous, speech in order to provide

17
adequate breathing space to the freedoms protected by
the First Amendment.”) (internal quotation marks
omitted). The Court should provide this breathing
space by granting review, reversing the Sixth Circuit,
and providing guidance on how the lower courts should
analyze “threats” to ensure the protections of the First
Amendment.
II.

This Case Shows that Lower Courts
Remain Uncertain about When
Inflammatory Speech Is Protected as a
Matter of Law under Watts, Claiborne
Hardware, or Brandenburg.

To determine whether Respondents were legally
justified for arresting and detaining Thames for over 49
hours for allegedly making a terrorist threat, we must
analyze the alleged crime. There is no dispute that
Thames was arrested for pure speech. That is, there is
no evidence of her making any threatening gestures,
brandishing any weapons, or possessing or displaying
anything that could remotely be considered criminal
contraband (e.g., a hoax bomb).8
Further, as this Court stated, statutes criminalizing
speech “must be interpreted with the commands of the
First Amendment clearly in mind” in order to
distinguish true threats from constitutionally protected
speech. Watts, 394 U.S. at 707. This principle applies
to the alleged crime at issue here (Mich. Comp. Laws
§ 750.543m). See Osantowski, 736 N.W.2d at 297
(construing the statute as limited to “true threats” so
8

(See R-36-3:Ex. J Soulliere Dep. at 37:2-8; 44:15-17, Pg.ID 650,
651; R-36-3:Ex. L Brooks Dep. at 27:14-1850:2-7, Pg ID 676).

18
as not to infringe on First Amendment protections)
(citing Watts, 394 U.S. at 707); Mich. Comp. Laws
§ 750.543z (“[A] prosecuting agency shall not prosecute
any person or seize any property for conduct
presumptively protected by the first amendment . . . .”).
And in cases involving the First Amendment, the
Court demands de novo review “because the reaches of
the First Amendment are ultimately defined by the
facts it is held to embrace.” Hurley v. Irish-Am. Gay,
Lesbian & Bisexual Group of Bos., 515 U.S. 557, 567
(1995); Bose Corp. v. Consumers Union of U.S., Inc.,
466 U.S. 485, 499 (1984) (same).
Thus, when there is no dispute of material fact, as
in this case, the First Amendment question is a
question of law. For example, in Watts, this Court
instructed that only a contextually credible threat to
kill, injure, or kidnap the President constitutes a “true
threat” that is punishable under the law. By contrast,
communications which convey political hyperbole (even
if they mention weapons, such as guns or bombs) are
protected by the First Amendment. Watts, 394 U.S. at
707-08; see id. at 706 (“If they ever make me carry a
rifle the first man I want to get in my sights is L.B.J.”).
The Court instructed that Watt’s alleged “threat” in its
factual context (i.e., Watts was engaging in a political
protest, not unlike the fact that Thames was also
engaging in a protest against abortion on the public
sidewalk outside of an abortion clinic) was not a “true
threat” which could be constitutionally prosecuted, but
instead was mere “political hyperbole” immunized by
the First Amendment. Id. at 706-08.

19
Accordingly, the Court held that the speech could
not be punished as a matter of law, thereby reversing
the jury conviction and ordering the “entry of a
judgment of acquittal.” Id. at 708. The Court did not
defer to the jury, as the Sixth Circuit asserts is
required here, App. 23—this Court reversed the jury.
The Sixth Circuit’s opposite conclusion in this case,
see App. 23 (quoting United States v. Hankins, 195
F. App’x 295, 301 (6th Cir. 2006) and concluding that
“[t]he jury determines whether a statement is a true
threat”), where there is no material fact dispute, runs
afoul of the First Amendment and threatens core First
Amendment protections, requiring the Court to correct
this error.
Likewise, in Virginia v. Black, 538 U.S. 343, 359
(2003), the Court stated that “‘[t]rue threats’
encompass those statements where the speaker means
to communicate a serious expression of an intent to
commit an act of unlawful violence to a particular
individual or group of individuals.” (emphasis added).
Accordingly, the Court held as a matter of First
Amendment law that the burning of a cross itself
cannot serve as the basis for prosecution since it is an
expressive act. See id. at 360-68. In this way, Black
confirms the concerns expressed in Watts about
punishing pure speech and makes clear that whether
the speech is protected is a legal determination for the
court, particularly when there is no dispute as to the
actual alleged “threat.” See also United States v.
Alkhabaz, 104 F.3d 1492, 1495 (6th Cir. 1997)
(upholding the dismissal of an indictment for making
a threat).

20
Significantly, the Court’s decision in Brandenburg
v. Ohio, 395 U.S. 444 (1969), has this same thrust,
emphasizing as it does that “the constitutional
guarantees of free speech and free press do not permit
a State to forbid or proscribe advocacy of the use of
force or of law violation except where such advocacy is
directed to inciting or producing imminent lawless
action and is likely to incite or produce such action.” Id.
at 447 (emphasis added).
This controlling precedent establishes that the
precise words allegedly uttered by Thames are crucial
and thus serve as the threshold for our inquiry. For if
the words themselves cannot be criminalized within
the commands of the First Amendment, there is no
basis (probable cause or otherwise) for arresting
Thames for uttering them.
The undisputed record reveals (by way of the sworn
testimony of Respondent Gatti and the police video
recording) the following with regard to the critically
important question of fact: “What exactly did she say?”:
***
BY MR. MUISE:
Q. We went over this in the internal
investigation report and I stopped [the police
video] at 8:52:53. [Parsley] told you, “I prophesy
bombs, I prophesy bombs are going to fall in the
near future.” Is that your recollection?
A. After seeing the video, yes.
Q. And those are the -- you asked him
specifically what exactly did she say, and that’s
what he told you, “I prophesy bombs, I prophesy

21
bombs are going to fall in the near future”,
correct?
A. Yes.9
This is the crucial exchange between Respondents’
only witness to the alleged crime and the officers who
are required to have probable cause before arresting
Thames for this crime.
Additionally, per the sworn written statement of
Respondents’ only witness to the alleged crime: “She
said, bombs, bombs on America, and bombs will blow
up this building.”10 This statement was signed by
Parsley at the scene of the arrest, just minutes after
Thames was taken into custody.11
The controlling—and well established—precedent
cited above establishes that the statement(s) allegedly
made by Thames are protected speech as a matter of
law.
The district court’s findings support this
conclusion. With regard to the alleged “prophesy
threat,” the district court properly observed the
following: “In essence, to ‘prophesy’ means to
prognosticate, but it does not suggest willful conduct or
that the speaker will be responsible for carrying out the
prediction.” App. 52. The district court further noted
that the “threat” described in the written statement,

9

(R-35-7:Def. Ex. F Gatti Dep. at 52:12, 23-25 to 53:5-23, Pg.ID
490-91; R-36-3:Ex. B [Police Video: JGatti at 8:51:31 to 8:52:53],
Pg.ID 586).

10

(R-36-3:Ex. E [Parsley Statement], Pg.ID 614).

11

(R-36-3:Ex. M Tardiff Dep. at 18:21-25 to 20:1, Pg.ID 682).

22
which wasn’t conveyed to the officers until after they
had arrested Thames, “is a vague prediction about the
future and does not suggest any present intention on
the part of Thames to carry out a crime of violence
against the clinic.” App. 53.
On these points, the district court was correct. The
alleged statements utterly fail to meet the
constitutionally mandated standard to constitute a
“true threat” as a matter of law under Watts or Black,
or incitement under Brandenburg. And changing the
word “bomb” to “brimstone, or God’s fiery wrath, or
something that might be considered overzealous
proselytizing” doesn’t change the legal conclusion, as
the Sixth Circuit seems to suggest. App. 21-22.
Indeed, the Sixth Circuit’s suggestion underscores the
fact that neither statement is a true threat—each is
political hyperbole at best. And neither statement
projects the imminence required by Brandenburg.
Remarkably, the Sixth Circuit does not deal with Watts
or Brandenburg, and makes only passing mention of
Black through a borrowed cite to a state court appellate
decision. See App. 21.
Because there is no dispute of any material fact
about what Thames is alleged to have said, probable
cause should have been determined by the court as a
matter of law. Hale v. Kart, 396 F.3d 721, 728 (6th Cir.
2005) (stating that “[w]hen no material dispute of fact
exists, probable cause determinations are legal
determinations that should be made” by the court); but
see App. 22 (stating that “[b]oth sides . . . are wrong” to
“insist this is not a question of fact for a jury but a
strictly legal decision for the court”). And this is

23
particularly important in a case such as this, which
involves an arrest and detention for pure speech.
In sum, Respondents’ inability, as a matter of law,
to make a threshold showing of an actionable “threat”
is fatal to the officers’ claim that they had probable
cause to arrest Thames based on her alleged
statement(s), and it is fatal to the Sixth Circuit’s
conclusion that the officers nonetheless enjoyed
qualified immunity. It is also fatal to the Sixth
Circuit’s dismissal of Thames’s claims based on a
conclusion that no constitutional violation occurred.
In the final analysis, this petition presents
important questions for this Court to resolve with
regard to the interplay between Watts, Black, and
Brandenburg in the context of a statute criminalizing
pure speech and who (judge or jury) decides whether
the speech is protected and thus beyond the reach of a
criminal statute in the first instance.
III.

This Case Shows that Courts Are Confused
Over What Speech Is Protected under the
Clearly Established Law Laid Down in
Watts, Brandenburg, and Claiborne
Hardware.

Officers enjoy qualified immunity only “insofar as
their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.” Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982); see also Saucier v. Katz, 533 U.S.
194 (2001); Pearson v. Callahan, 555 U.S. 223 (2009).
“This is not to say that an official action is protected by
qualified immunity unless the very action in question

24
has previously been held unlawful, but it is to say that
in light of pre-existing law the unlawfulness must be
apparent.” Anderson v. Creighton, 483 U.S. 635, 640
(1987) (internal citation omitted); Hope v. Pelzer, 536
U.S. 730, 741 (2002) (“[O]fficials can still be on notice
that their conduct violates established law even in
novel factual circumstances.”).
The qualified immunity analysis is ultimately an
objective, legal analysis. As stated by the Court, “By
defining the limits of qualified immunity essentially in
objective terms, we provide no license to lawless
conduct.” Harlow, 457 U.S. at 819.
As demonstrated above, the question of whether a
statement qualifies as a “true threat” under clearly
established law is a question of law when there is no
dispute of fact about the alleged statement. See Watts,
394 U.S. at 708. And if the alleged speech is not a
“true threat” under clearly established First
Amendment jurisprudence, then the arrest was
unlawful and the officers do not enjoy qualified
immunity.
The undisputed material facts establish that no
statement attributed to Thames qualifies as a “true
threat” as a matter of clearly established law. See
supra. As a result, the officers had no legal basis
(probable cause or otherwise) for arresting, searching,
and detaining Thames for over 49 hours based on these
alleged statements. The officers do not enjoy qualified
immunity. See Dugan v. Brooks, 818 F.2d 513, 516 (6th
Cir. 1987) (“When an officer makes an arrest, it is a
‘seizure’ under the Fourth Amendment, and the arrest

25
is a violation of a right secured by the amendment if
here is not probable cause.”).
Indeed, there are multiple reasons for finding
Thames’s arrest unlawful as a matter of clearly
established law in addition to the central point that the
alleged speech is not proscribable under the First
Amendment. First, the officer (Respondent Brooks)
who directed Thames’s arrest testified that she could
be arrested for merely uttering the word “bomb”
outside of an abortion clinic and that the alleged threat
need not be “credible” at all. Second, not only was
there no imminence in the actual words of the alleged
threat for which Thames was arrested, the actions of
the officers demonstrate that they perceived no
imminent fear or apprehension nor did they perceive
the alleged “threat” to be credible in any way. In fact,
the officers’ actions demonstrate that they did not
believe that this was a “serious expression of an intent
to commit an act of unlawful violence” or that there
was any reasonable ground to believe that the danger
apprehended was imminent. As the undisputed
evidence shows and as the district court properly
found, App. 52, the officers did not evacuate the clinic
nor did they search it or the surrounding area for a
bomb, among other failings. In short, the officers did
nothing that a reasonably prudent person who actually
believed the alleged threat was serious, real, or
imminent would do. And the only “witness” that the
officers relied upon—the security guard—was not
credible at all.
He made materially conflicting
statements at the scene of the arrest.

26
In the final analysis, there is only one
reasonable—and legal—conclusion that can be drawn
from the undisputed evidence: there was no
justification, probable cause or otherwise, to arrest
Thames as a matter of law. Respondents are liable for
violating Thames’s clearly established rights under the
First and Fourth Amendments. Review by this Court
is warranted.
IV.

This Case Shows that Courts Are Confused
about the Application of Black to
Municipal Policies that Authorize Arrests
Based on Pure Speech.

“Monell is a case about responsibility.” Pembaur v.
City of Cincinnati, 475 U.S. 469, 478 (1986). It does not
immunize a municipality so that individual officers
who are acting consistent with how they were trained
and how they are expected to operate are left holding
the bag.12 The City had multiple opportunities to
distance itself from the actions of the officers, but each
time it confirmed that the officers were operating
pursuant to department policy and practice and how
they were trained. Indeed, the witness designated by
the City to testify on its behalf admitted this fact:
Q. You testified aside from those three instances
where officers were verbally counseled that
everything that the city police officers did with
regard to my client, including the arrest and
subsequent detention, was consistent with the
12

Moreover, because the officers (erroneously) enjoy qualified
immunity, Thames is left with no recourse for the unjustified harm
she suffered by the City and its law enforcement officials.

27
policies, practices of the police department; is
that right?
A. That’s correct.
Q. As you sit here today, would the City of
Westland take responsibility for all those
actions?
A. Yes.13
The City had no substantive response to this clear
admission of liability.14 Relying on this Court’s
precedent, the Sixth Circuit in Meyers v. City of
Cincinnati, 14 F.3d 1115, 1117 (6th Cir. 1994), stated,
“The requirement that a municipality’s wrongful
actions be a ‘policy’ is not meant to distinguish isolated
incidents from general rules of conduct promulgated by
city officials. It is meant to distinguish those injuries
for which ‘the government as an entity is responsible
under § 1983,’ from those injuries for which the
government should not be held accountable.” (internal
citation omitted) (emphasis added). Here, the City, as
an entity, is responsible under § 1983 for the violation
of Thames’s rights.
Additionally, the actions of the officers were
officially ratified by Respondent Jedrusik, the Chief of
Police and the person responsible for the policies,
practices, and procedures of the City police department
and for training its officers.
See St. Louis v.
13

14

(R-36-3:Ex. O Miller Dep. at 86:1-10, Pg.ID 700).

The City’s argument that it cannot be liable because there was
no constitutional violation circumvents the issue by failing to
respond directly to the question of who is “responsible” for the
actions at issue. (See Appellee Br. at 45-46).

28
Praprotnik, 485 U.S. 112, 127 (1988) (“[W]hen a
subordinate’s decision is subject to review by the
municipality’s authorized policymakers, they have
retained the authority to measure the official’s conduct
for conformance with their policies.”). Respondent
Jedrusik did so through an official investigation, in
which it was concluded that Thames’s arrest was
“reasonable and justified.” 15 In short, the City and its
Chief of Police are “responsible” for the deprivation of
Thames’s rights.
Finally, per Respondents’ testimony and arguments,
a pro-life demonstrator can be arrested in the City as
a matter of policy and practice for simply uttering the
word “bomb” outside of an abortion facility. It does not
matter how this word was uttered by the pro-life
demonstrator (we know the security guard said the
“bomb” word first, but it was apparently permissible for
him to do so), it is forbidden, and simply uttering it
constitutes a crime. (See Appellees Br. at 8 [“[T]he
supervisor making the arrest decision, Defendant
Brooks, did so with specific reference to the mention of
‘bombs.’ This is the ‘precise word’ that was ‘crucial’ to
Brooks’ decision.”]; see also id. at 15 [“Thames’s alleged
reference to ‘bombs’ was the critical element for her
arrest.”]).

15

(R-36-3:Ex. O Miller Dep. at 44:6-25 to 45:1-3, 49:5-10 [affirming
no changes to policies, practices, or procedures], Pg.ID 693-95; Ex.
C [Internal Investigation] at 16 [concluding that the arrest was
“reasonable and justified”], Pg.ID 603).

29
This policy, which was the moving force behind the
violation of Thames’s rights, violates the rationale of
Virginia v. Black. In that case, the jury was allowed to
find intent to intimidate based solely on the burning of
a cross. Per the opinion of Justice O’Connor, “The
prima facie evidence provision in this case ignores all
of the contextual factors that are necessary to decide
whether a particular cross burning is intended to
intimidate. The First Amendment does not permit
such a shortcut.” Black, 538 U.S. at 367. Here, the
City’s policy that “you can’t say anything about bombs
near a facility that performs abortions,” functions just
like the prima facie showing in Black, and ignores all
of the contextual factors that must be considered in
order to determine whether a specific statement is a
true threat under Black or protected speech under
Watts, Brandenburg, or Claiborne Hardware.
To summarize, first, the violations occurred as a
result of the actions of nearly the entire day shift and
the shift supervisor (Respondent Brooks) and not
simply the acts of one or a few rogue police officers.
And the officers were operating pursuant to the policy
and practice that a pro-life demonstrator can be
arrested for simply uttering the word “bomb” outside of
an abortion facility. Second, pursuant to the sworn
testimony of the City’s designated Rule 30(b)(6)
witness, the City takes full “responsibility” for the
actions of the officers and admits that these actions
were pursuant to the policies, practices, and procedures
of its police department.16 Third, the City, through its
Chief of Police, Respondent Jedrusik, officially
16

(R-36-3:Ex. O Miller Dep. at 86:1-10, Pg.ID 700).

30
sanctioned and ratified the unlawful conduct of the
officers.17 And finally, the length of the unlawful
detention was caused by the policies, practices, and
procedures of the City, which cites “budget” reasons for
why Thames remained imprisoned for over 49 hours
before being released because there was no evidence of
a crime.18
The City and Respondent Jedrusik are “responsible”
and thus liable for the deprivation of Thames’s clearly
established rights and the injuries she suffered as a
result.

17

(R-36-3:Ex. O Miller Dep. at 44:6-25 to 45:1-3, 49:5-10 [affirming
no changes to policies, practices, or procedures], Pg.ID 693-95; Ex.
C [Internal Investigation] at 16 [concluding that the arrest was
“reasonable and justified”], Pg.ID 603).
18

(R-36-3:Ex. O Miller Dep. at 20:5-25 to 21:1-3 [citing budget
reasons for why there is only one detective on weekend duty to
handle in custody prisoner cases], Pg.ID 691-92; R-36-3:Ex. N
Farrar Dep. at 24:19-24, Pg.ID 686; Ex. D [Incident Report] [“I do
not see a direct threat where Kimberley threatened to bomb the
clinic.”] at 5, Pg.ID 611). The record shows that Respondent
Soulliere completed the Incident Report at 11:40:52 a.m. on August
27, 2016. The report was reviewed by Respondent Brooks at
2:37:40 p.m. that same day. Respondent Brooks approved the
report and sent it to the Detective Bureau minutes later (2:40:17
p.m.). (R-36-3:Ex. L Brooks Dep. at 11:1-25 to 12:1-19, Pg.ID 673;
R-36-3:Ex. H [Report Chronology], Pg.ID 634). Respondents’
“budget constraints” justification for the City’s lack of manpower
and thus attention to innocent persons sitting in its holding cells
is not a “bona fide emergency” or an “extraordinary circumstance.”
(See Appellee Br. at 41).

31
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500
PATRICK T. GILLEN
Special Counsel
Thomas More Society
1581 Oakes Boulevard
Naples, FL 34119
(734) 355-3478
Counsel for Petitioner

